Writer’s Direct 404-651-9453
Fax 404-656-2199
apinson@law.ga.gov

August 3, 2020
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543-0001
RE:

No. 19-968, Uzuegbunam v. Preczewski

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Respondents Stanley C.
Preczewski, et al., give blanket consent to the filing of amicus curiae briefs in
support of either or of neither party in this case, with respect to the Petition for
Writ of Certiorari filed on January 31, 2020, which the Court granted on July 9,
2020.
Sincerely,
/s/Andrew A. Pinson
Andrew A. Pinson
Counsel for Respondents
cc: John J. Bursch
Counsel for Petitioners

